IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM 2021
NO.
ROSS COLBY,
PETITIONER,
v.
UNITED STATES OF AMERICA,
RESPONDENT.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner, ROSS COLBY, pursuant to Rule 39.1, Rules of the Supreme
Court of the United States, and 18 U.S.C. ยง 3006A, asks leave to file the attached
Petition for Writ of Certiorari to the United States Court of Appeals for the Ninth
Circuit without pre-payment of costs and to proceed in forma pauperis. Petitioner
was represented by appointed counsel on appeal to the United States Court of
Appeals for the Ninth Circuit, pursuant to the Criminal Justice Act.

Dated: May 25, 2021 Respectfully submitted,

DENA MARIE a

2751 4" Street, PMB #136
Santa Rosa, California 95405
Telephone: (707) 528-9479

Email: dmyounglaw@gmail.com

Attorney for Petitioner
ROSS COLBY
